/?• /w

No.
3n

(Supreme <£oiirt bf tfje Httifeb (Stated

Supreme Court, U.S.
P'1 SO

APR 0 3 2020
OFFICE OF THE CLERK

LEE MULCAHY, PhD, pro se
Petitioner,
v.
ASPEN SKI COMPANY (“Skico”)
Respondent.
On Petition for Writ of Certiorari
To The Colorado Court of Appeals

PETITION FOR WRIT OF CERTIORARI

LEE MULCAHY, Ph.D., Pro Se
53 Forge
Aspen, CO 81611
(970)429-8797
leemulcahvphd@gmail. com

i

QUESTIONS PRESENTED
1. Is the banning from ski lift operations on public
lands during Plaintiffs distribution of a
unionization flyer promoting a living wage a
violation of free speech protections guaranteed
under the 1st amendment and the Colorado’s
const. Article II, Section 10?

ii

LIST OF PARTIES
All parties are listed in the caption.
RULE 29.6 STATEMENT
None of the petitioners is a nongovernmental
corporation. None of the petitioners has a parent
corporation or shares held by a publicly traded
company. The Defendant, Aspen Skiing is a
corporation.

Ill

TABLE OF CONTENTS
QUESTIONS PRESENTED

i

LIST OF PARTIES

ii

TABLE OF AUTHORITIES

vi

OPINIONS BELOW

1

STATEMENT OF JURISDICTION

1

CONSTITUTIONAL PROVISIONS INVOLVED.. 2
STATEMENT OF THE CASE

2

A. Statement of facts

3

REASONS FOR GRANTING THE WRIT
I.

6

Flyer is protected free speech under the
National Labor Relations Act (1935).
The district court erred in never ruling
on motions whether the flyer was
protected free speech avoided declaring
that the action (the entire ban) was
retaliation against protected free speech,
a clear violation of public policy.... 6

iv

n.

Retaliation against protected free speech
is illegal

9

A. Relevant facts

10

B. Affidavit

13

APPENDIX
APPENDIX A
November 29, 2018 Case No. 2017CA1010 Colorado
Court of Appeals (No. 17CA1010 Pitkin County District
Court No. 12CV97) Judgment
Affirmed
App.l
APPENDIX B
October 3, 2012. Case 2012CV97 District Court, Pitkin
County, Colorado order on defendant Skico’s motion
to dismiss in plaintiff’s favor
App. 18

V

APPENDIX C
August 19, 2019 COLORADO SUPREME COURT No.
19SC100 (Court of Appeals Case No. 17CA1010)
Petition for Writ Of Certiorari DENIED. EN
BANC
App.23

VI

TABLE OF AUTHORITIES
Page
CASES
Bock v. Westminister Mall Co., 819 P.2d 55 (Colo.
8
1991)
Bradford v. Textile Workers ofAmerica, AFL-CIO, 563
10
F.2d 1138 (4th Cir. 1977)
Elrod v. Bums, 427 U.S. 347 (1976)

9

Holder v. City of Allentown, 987 F.2d 188 (3rd Cir.
10
1993)
Mt. Healthy City School District Board of Education v.
9
Doyle, 429 U.S. 274 (1977)
Pickering v. Board ofEducation, 391 U.S. 563
(1968)...........................................................

8

Ridpath v. Board of Governor’s Marshall Univ.,
447 F.3d 292 (4th Cir. 2006).............................. 10
Shelton v. Tucker; 365 U.S. 479 (1960)

9

vu
CONSTITUTIONAL PROVISIONS
U.S. Constitution, First and Fourteenth
Amendments

7,8

STATUTES
42 U.S. Code § 1983
National Labor Relations Act (1935)

3
3,6,7

OTHER AUTHORITIES
Slavoj Zizek, Living in the End Times, London,
12
Simon & Schuster (2011)
Bob Tamarkin, New York Times, Dec. 7,1986.
https://nvti.ms/38IiB00
10,11
NBC News, January 9, 2017.
https://nbcnews.to/2wYlfKG

12

1

PETITION FOR WRIT OF CERTIORARI
Lee Mulcahy respectfully petitions for a Writ of
Certiorari.
OPINIONS BELOW
The denial of my writ of certiorari by the Colorado
Supreme Court and the unpublished opinion of the
Court of Appeals is unreported and found at Appendix
A and B.
The initial order of Pitkin County district court judge
Thomas Ossala is found at Appendix C.
STATEMENT OF JURISDICTION
The Colorado Supreme Court denied the petition for
writ of certiorari on August 19, 2019. The jurisdiction
of this Court is invoked under 28 U.S.C. § 1257(a).
CONSTITUTIONAL PROVISIONS INVOLVED
U.S. Const. Amend. I, which in pertinent part,
provides: “Congress shall make no law ... abridging
the freedom of speech....”
U.S. Const. Amend. XIV, § 1, which in pertinent part,
provides: “No State shall... deny to any person within
its jurisdiction the equal protection of the laws.”
STATEMENT OF THE CASE
On April 16, 2012,1 brought this action against
Skico asserting a claim that Skico’s ban, instituted
when a Vice President interrupted me passing out
flyers* on public lands and summoned me to
headquarters, was illegal and unconstitutional. (R.CF,

2

pp.1-16) (*Published in both Local newspapers) For
most of the proceedings, I represented myself. I am an
artist, not a lawyer. On February, 27, 2015, Tty Gee of
the law firm of Haddon, Morgan & Foreman, P.C.
entered his appearance on my behalf. (R.CF, p. 652)
On March 26, 2015, an amended complaint was filed
adding the complaints of malicious prosecution and
abuse of process asking for a jury trial, previously
removed by the Judge. (R.CF, pp. 672-690) On July 26,
2015, the trial court issued its order dismissing the
2nd, 3rd & 4th claims for relief in the amended
complaint.
Three motions requesting declaratory judgment
were filed, all by me. (R.CF, pp. 310-15,1189-90,
1383-87). After I could no longer afford attorney
representation, on December 2,2015, the jury was
struck for the second time. (R.CF, 1174-1179)
Subsequently, the depositions of Skico’s CEO and
upper management were entirely suppressed from
public view. (R.CF, 1147-48) Two motions for
disqualification of the judge were filed and both were
denied. (R.CF, 1038-48,1448-58)
On April 6, 2016, the trial court issued its order
on the pending motions and summary judgments. The
court declined “to address Mulcahy’s Motions for
Declaratory Judgment concerning the flyer he
distributed in 2010” stating that “determination of that
issue is not necessary to resolve the question before
the Court on summary judgment.” (R.CF, p. 1410)

3

Colorado’s court of appeals affirmed the lower court
on November 29, 2018 and subsequently denied a
rehearing on January 31, 2019. Additionally,
Colorado’s supreme court denied certiorari on August
19, 2019.
Statement of Facts
In August, 2010, after Skied had reprimanded
me for a letter to the editor and had surreptitiously
and unlawfully deleted hours from my timesheet, I
sent an email to my fellow members of the Diamond
Pros, an elite group of ski instructors employed by
Skico, inquiring about those individuals’ interest in
unionizing. In the August 1, 2010 email, I noted the
low wages Skico pays to entry-level instructors, and
suggested that the Diamond Pros help improve those
instructors’ wages. (R.CF, p. 674) After learning about
the email to the Diamond Pros, Skico reprimanded me
on August 12 and removed me from the Diamond Pros
on August 20, 2010.
In October 2010, I filed a grievance with the
National Labor Relations Board(“NLRB”) alleging
Skico violated the National Labor Relations Act
(“NLRA”) by removing hours worked from my
timesheet and taking adverse action against me for
trying to unionize Skico employees. (R.CF, pp. 676)
The NLRB later found Skico violated the NLRA and
required Skico to change its operating structure and
revise its freedom of speech policy.

4

In the fall of 2010,1 formed a group called
People for a Living Wage. The group’s mission was to
encourage Skico and other Aspen employers to pay
wages commensurate with the high cost of living in
Aspen, and to advocate for unionization of employees.
On December 30, 2010,1 distributed flyers encouraging
attendance at a meeting of People for a Living Wage on
both private and public lands leased by Skico. During
my distribution, I was confronted by Skico Vice
President of Human Resources Jim Laing, summoned
to Skico headquarters, and was told that my 15 year
employment was suspended and I was permanently
banned from all Skico property owned, leased or
otherwise controlled by Skico. (R.CF, pp. 12,16, 60-62,
675).
On April 16, 2012,1 filed the initial complaint
pro se in district court, having previously filed it in
county court by mistake. (R.CF., pp. 672-79, 730-32)
Previously, acting pro se I served Skico with notice of
the instant action by taping a copy of the county court
complaint to a side door of the building in which
Skico’s headquarters are housed, which opened onto a
parking lot clearing displaying signs reading “No Skico
Parking.” I did not enter Skico property; however,
Skico contacted law enforcement and had me arrested
for criminal trespass carrying a maximum sentence of
six months. Skico caused criminal trespass
proceedings to be initiated against me to abandon the
instant litigation, to damage my reputation in the

5

community, to harass me and to chill the speech of
Skico’s employees and our community. Nine months
later, the district attorney’s office later dismissed the
case after learning that the side communal door to
which I taped the complaint and its adjacent area were
not Skico’s property. (R.CF, p. 672-75, 676, 860-64)
The town of Aspen, Colorado, an idyllic
paradise of 6800 residents, is dominated by its largest
employer, the Aspen Skiing Company. Skicoandits
principals and officers wield extraordinary power and
influence on public officials and others. (R.CF, pp.
60-67, 672) The company employs over 4500 people in
a town with a population of 6788 . (R.CF pp. 1386,
1456)
The company is owned by the infamous
Chicago billionaire Lester Crown and his family, a man
who was caught and later in court admitted to bribing
public officials. The Crown family owns the largest
percentage of weapons maker General Dynamics. Mr.
Jim Crown is chair of the Aspen Institute’s board of
trustees of which the presiding district court judge
admitted in court to being a member for over a
decade. (R.CF, pp. 60-68,1386,1456) Indeed, Aspen is
a modem version of an Appalachian coal mining
company town. (R.CF, pp. 60-67)
On matters relating to employment practices in
and around the Aspen area, Skico is thin-skinned and
highly protective of its interests. As exemplified by its
conduct, Skico moves quickly and preemptively to

6

shut down speech critical of Skico or speech
supporting or containing political content it disagrees
with. Because of its power and influence (Skico was
declared guilty of monopolist actions by the Supreme
Court when it was only three mountains before
purchasing the fourth and previously only independent
mountain), Skico can effectively silence political
activists by depriving them of an economic livelihood
in the Pitkin County area. (R.CF, pp. 60-67, 672,
1456-7)

REASONS FOR GRANTING THE WRIT
I.Flyer is protected free speech under the National
Labor Relations Act (1935). The district court erred in
never ruling on motions whether the flyer was
protected free speech avoided declaring that the
action (the entire ban) was retaliation against
protected free speech, a clear violation of public
policy.
I requested motions for declaratory judgment on
whether the flyer was free speech three separate times
to little or no avail. (R.CF, pp. 310-15,1189-90,1383-87)
Skico argued that this question of protected free
speech “bears questionable relevance to the remaining
issue in this case as to whether ASC (Skico) may
legally exclude the Plaintiff from its property.” (R.CF,
p. 1203) Had the district court declared the flyer

7

protected free speech, a reasonable jury would have
been able to determine that Skico’s immediate action
(Skico’s ban instituted during the flyer distribution)
was entirely retaliatory.
In its April 6, 2017, order on summary judgment
motions, the district court declined to address
Mulcahy’s motions for declaratory judgment
concerning the living wage unionization flyer;
however, the union flyer was part of activities and
protected free speech covered under the National
Labor Relations Act, section 7. The district court
stated that “determination of that issue is not
necessary....” (R.CF, p. 1410). This faulty reasoning
allowed the district court to allow some aspects of the
ban to remain; rather than declare the entire ban as a
retaliatory measure. (R.CF, pp. 1396-1411)
In broad terms, the First Amendment protects
the right to be free from government abridgment of
speech. Retaliation for the exercise of First
Amendment rights is a blackletter constitutional
violation. In fact, an act taken in retaliation for the
exercise of a constitutionally protected right is
actionable under the law (42 U.S. Code § 1983 - Civil
action for deprivation of right) even if the act, when
taken for a different reason, would have been proper.
To succeed on a First Amendment retaliation claim,
courts have determined that a civil-rights plaintiff
must demonstrate three things. First, the plaintiff

8

engaged in protected conduct. This means that the
plaintiffs speech or expression was the type
traditionally covered under the First Amendment.
Second, an adverse action was taken against the
plaintiff that would deter “a person of ordinary
firmness” from continuing to engage in that speech or
conduct. Third, there is a cause-and-effect relationship
between these two elements, i.e., the adverse action
was motivated at least in part by the plaintiffs
protected conduct.
Secondly, the Colorado Supreme Court has long
recognized that it is free to give broader protection
under the Colorado Constitution than is accorded by
the U.S. Constitution. It has, in fact, done so with
certain state constitutional rights, including freedom
of speech. See Bock vs Westminster Mall Co., 819 P.2d
55 (1991) at 59-60 (finding that Colorado’s free speech
provision in our state constitution, Article II Section 10
provides greater protection than the First
Amendment).
In order to safeguard vital first amendment
freedoms at stake, the Supreme Court declared that
the plaintiff should initially carry the burden of
establishing only: 1) that he engaged in speech or
conduct that is "arguably" protected because the
speech or conduct falls within the scope of the first
amendment; 2) that the first amendment incident was
a motivating factor in the alleged retaliatory action.
Pickering v. Board ofEducation, 391 U.S. 563 (1968);

9

Mt. Healthy City School District Board of Education v.
Doyle, 429 U.S. 274 (1977) Both are the case. Had the
district court declared the flyer as a protected
concerted activity under the National Labor Relations
Act of 1935 or our state constitution, Skico would have
been required to justify the suppression of speech with
compelling reasons which it could not have done.
Numerous Supreme Court decisions have
recognized the critical weight that should be accorded
first amendment rights in our society. Shelton v.
Tucker, 364 U.S. 479 (1960); Elrod v. Bums, 427 U.S.
347,362 (1976) The ban from skiing and hiking on
thousands of acres in both Aspen and Snowmass from
public lands of a union organizer has had a chilling
effect on the protected rights of the nearly 4500
employees of Skico in a small town with a population
of 6788. (R.CF, p. 12) The same reasoning applies
here. This Court should order the district court to
reconsider the motions on declaratory judgment as to
whether the flyer was protected free speech.
n.Retaliation against protected free speech is illegal.
The prohibition against chilling free speech
derived from the prohibition against retaliation. The
hurdles faced by the employee who is fired because of
protected speech are not invisible to the employee
who is deciding whether to speak up. An employee
who considers whether to blow the whistle on their

10
employer for unlawful conduct or to advocate
unionization among her coworkers, but who fears
he/she may lose her job or be banned from riding ski
and bike lifts in national forest with no readily
available means of redress, is likely to be deterred
from speaking. Notwithstanding the formal prohibition
of retaliation against certain kinds of speech, we
should expect reasonable employees to be "chilled"
from speaking freely when it may put their jobs at risk
or worse. (Bradford v. Textile Workers ofAmerica,
AFL-CIO, 563 F.2d 1138 (4th Cir. 1977); Holder v. City
ofAllentown, 987 F.2d 188 (3rd Cir. 1993); Ridpath v.
Board of Governor’s Marshall Univ., 447 F.3d 292 (4th
Cir. 2006)
Accordingly, Pro Se petitioner respectfully
requests that this Court grant my Petition for Writ of
Certiorari or in the alternative, that an order be
entered for a trial by mortal combat between
petitioner and Mr. Jim Crown, owner of Aspen Skiing
and weapons maker General Dynamics.
Relevant facts
1.
Chicago billionaire Lester Crown controls one
of America’s largest fortunes. The New York Times
writes:
“On the face of it, the issue seemed less
than monumental: the Pentagon was
seeking to revoke a businessman's
top-secret security clearance. The

11
significance lay in the nature of the
evidence, the financial and political
stakes involved and the identity of the
accused: 61-year-old Lester Crown, head
of the billionaire Chicago family that
controls America's largest defense
contractor, the General Dynamics
Corporation. Among those who
appeared or offered affidavits in his
behalf: Three former Secretaries of
State, two former Secretaries of Defense,
and former Secretaries of Treasury and
Commerce. Henry Kissinger praised
Crown's 'extraordinary probity.' Robert
McNamara had 'every confidence in his
integrity.' David Packard, co-founder of
the Hewlett-Packard Company and head
of a Presidential commission that had
just recommended sweeping changes in
the organization of the Defense
Department, vouched for his
'trustworthiness.' ”
2.
Consequently, it has been very difficult to
obtain legal counsel. No one wants to take this case
on even with a paid retainer. The Crowns entertain
Supreme Court justices in their homes and tweet out
their photos. No one wants to tackle this family. The
last bastion of a free society is the ability to criticize
our masters.

12
3.
The billionaire Crowns have destroyed me
legally. My family is being evicted from the home we
built over five years and have never been late on taxes.
I have nothing to lose. Dubbed the “Elvis of cultural
theory” and “the most dangerous philosopher in the
West,” researcher at the Department of Philosophy of
the University of Ljubljana Faculty of Arts,
International Director of the Birkbeck Institute for the
Humanities of the University of London., and also
Global Eminent Scholar at Kyung Hee University in
Seoul, Slavoj Zizek stated: “In politics, we have
authentic enemies. Everyone should not be respected
in politics and so on. Politics is a real struggle of life
and death.” Recently, a man asked an Iowa judge to
let him engage in a sword fight with his ex-wife and
her attorney in a trial by combat that will settle their
ongoing legal dispute.
4.
This Court has the power to let the parties
resolve our disputes on the field of battle, legally. Trial
by combat has never been explicitly banned or
restricted as a right in the United States. Mr. Jim
Crown’s General Dynamics has manufactured the
weapons that have caused the death of many innocent
women and children throughout the world. His “best
friend,” President Barack Hussein Obama bombed
seven Muslim countries in 2016 alone. See
https://www.nbcnews.com/news/world/u-s-bombed-ira
q-svria-pakistan-afghanistan-libva-vemen-somalia-n704
636

13
5.
Pro Se petitioner respectfully requests this
Court to restrict Mr. Crown from using any of his own
bombs, guns or tanks and restrict him to utilizing
Japanese samurai swords in our Court ordered trial by
mortal combat. In addition due to the coronavirus
epidemic, I respectfully request 52 weeks so that we
can both secure Japanese samurai swords.
6.
I believe I have met Skico’s absurdity with my
own absurdity. Mr. Crown can choose any of the
many Chicago, Denver or Aspen attorneys of the three
separate firms he has chosen simultaneously to
employ during the course of this lawsuit as his
stand-in, including the husband of the current assistant
attorney of the City of Aspen or even Ed Ramey, the
free speech expert teaching at the University of
Colorado, to stand in for him.
AFFIDAVIT
STATE OF COLORADO
COUNTY OF PITKIN
Lee Mulcahy, being duly sworn, deposes and states as
follows:

I, Lee Mulcahy, state the following:
1.
I am an Eagle Scout and have volunteered
thousands of hours for my community. Our Sheriff

14
believes that the ban is not American. My paintings
are in and have been shown in museums in both Berlin
and Nairobi and galleries all over the world including
Aspen, Carbondale, Prague and Beijing. I am not an
attorney. Before I initiated this lawsuit, I challenged
Mike Kaplan, Skico’s CEO to this ski-off:
Dear Mike,
Despite our differences, we both love the
community our town creates. Although I have to
ROFL when the local dukes and countesses line
up to pay 10K to meet barefoot Michelle Obama
at the castle General Dynamics built four blocks
from my house. Rome in the 4th Quarter or
Versailles?
These days our politicians are just boring
blowhards; whereas, our Revolutionary
forefathers deeply respected a good fight. One of
the more famous duels back in the day occurred
when Vice President Burr fatally wounded
former Secretary of Treasury Hamilton in a High
Noon shootout.
Taking inspiration from the Roger Marolt/Aspen
Times and Lo Semple/Aspen Daily News current
challenge: Why not a Mulcahy/Kaplan flip-off at
the base of Aspen? Set up bleachers & the whole
town could come.. .you’ll need to use the Little
Nell suite above Ajax Tavern as a VIP section for
your crowd. Cheerleaders?—would

15
Paula (Crown) bring pom-poms and go all Dallas
Cowboys for you?
It’ll be hilarious: CEO vs. peon; big money vs.
white trash; Chicago North Shore vs. Fort Worth,
Texas; Audi driving Master of the Skico Universe
vs. pick-up driving Skico whistleblower; Aspen
Institute green “limousine liberal” vs. “Don’t
tread Oh me” NRA/Tea Party occupier; Castle
Creek free market Denver University MBA vs.
Burlingame public housing union organizing
Sorbonne-attending PhD; Ski vs. snowboard; 1%
vs. 99%.
How ‘bout a moguls contest on AH’s Scarlett’s
instead of all this legal stuff we’ll go through
next? Man to man. The Old Guard of Aspen
would love it and so in line with our local
history. But if I win, Skico has to pay more than
$9.25/hr. You call a “living wage” here and ... I
get my job back. Full disclosure: I was freestyle
aerial certified. But I’ll even flip on a snowboard
and you can use those skis Roger Marolt pokes
fun of you about.
These protests all over the world have the same
message: Hey, 1%! Be fair and treat us with
dignity.
And that’s the paradox of the public space,
everyone may kind of know something
unpleasant, but once someone says it, it changes
everything. Therefore, I cannot resist:

16
Paula Crown, graduate candidate at the Art
Institute of Chicago, is on President Obama’s
arts council. Michelle has lunch at Paula’s
palace. General Dynamics and JP Morgan Chase
are very prosperous.
What was that Dan Sheridan song Paula had
banned? “Big Money Ruins Everything”?
28th amendment to get the money out of politics
anyone?
So back to skiing, Mike, are you in?
2.
The American people are no longer partners of
the government. We are subjects.
3.
The American dream is disappearing as little
people lose faith in our institutions and our justice
system.
4.
The politicization of our justice system
continues unabated.
5.
America was bom out of an act of treason.
While many in Aspen may not agree with my
libertarian politics or conservative anti-government
beliefs, the freedom to dissent is one that we all
should cherish. Whether you are an Occupy Wall
Street protester or an anti-government Tea Partier in
the mountains, your right to protest and live in peace
deserves the respect of our government and all that
live under it.
6.
Skico has sought to make an example for
anyone else attempting to make them obey state and

17
federal labor laws. Their Vice President complained to
the newspaper that the National Labor Relations Act
was a tired “old law” that was not relevant to today’s
current conditions. The NLRB forced Skico to sign
settlements with me in 2011. My neighbors say that in
Aspen everyone knows that “you cannot criticize the
Crown family” (nee Krinsky.) Why? Because the
Crowns Own General Dynamics. Lester Crown’s
bribery of public officials and continually getting
caught lying about his involvement in this felony has
been the subject of numerous articles in both the
Chicago Tribune & New York Times.
7.
District Judge Chris Seldin admitted in court
that he was a member of the Aspen Institute’s Lester
Crown Society of Fellows for over a decade.
Colorado’s court of appeals wrote that “the judge was
a member of the Society of Fellows of the Aspen
Institute periodically over a fourteen-year (14)
period....” Annual membership, which promises
“access,” begins at $2500.00. To many Americans, an
annual $2500 donation by an assistant county attorney
to an organization controlled by out of state
billionaires for over a decade would indicate “bias.”
Not according to our justice system: It’s just like the
police. When the system investigates itself, nothing
happens. Furthermore, Lester’s son, Jim, is President
of the Aspen Institute’s board. Former President
Obama describes Jim and his artist wife, Paula, as his
“best friends.” Several local judges declined to

18
declare the flyer as “protected free speech” despite
multiple requests. No one wants to cross the Crown.
Why did the court sit on the case for years and
multiple judges refuse to declare the flyer as
“protected free speech?” Retaliation against protected
free speech is illegal.
8.
Once local politician Chris Seldin was
appointed judge in Aspen by the Democratic governor,
the Democratic machine that has held power for
decades moved to have me evicted from the home my
family built with our own hands. Previously, the
Aspen Institute’s attempted restraining order against
me went to the Colorado Supreme Court and the
Judge Seldin’s beloved Aspen Institute lost. When you
sue a powerful billionaire in America, expect to be the
defendant on allegedly unrelated lawsuits. Colorado’s
history on judicial rulings for labor activists has been
well documented and frankly, sad. We are grateful to
God and the community for their love and support,
especially the Gorsuch’s and Father John Hilton.
Perhaps, local politician cum assistant Pitkin County
attorney cum judge Chris Seldin believes that in the
United States of America if you punish a
whistleblower, you’ll be rewarded. Phillip Taft and
Phillip Ross, both scholars of American labor violence
concluded that “there is no episode in American labor
history in which violence was as systematically used
by employers as in the Colorado labor war of 1903 and
1904.” In these battles between labor (little people)

19
and capital, between miners and mine owners, the
state government with one exception sided with
capital. And so it continues.
9.
Tribalism in humans runs deep. My family
volunteers our time and resources with our church
providing clean water wells and humanitarian aid in
Kenya where there are 42 tribes. Here in the United
States, some state America has tWb main tribes: the
Republicans and the Democrats. The Democrats
control Aspen, its city council and board of county
commissioners which have blocked all hearings,
settlements and mediation. The Mulcahy’s are Tea
Party Republicans. The weaponized combination
threatens the very liberty that Americans fought a
revolution to secure. American historian Gary Gerstle
warns that the fracture between Democrats and
Republicans over the proper reach of government
constitutes an unbridgeable chasm and may portend to
the nation's decline.
10.
Out of state owner of Aspen Ski Lester Crown
and his Judge Chris Seldin are Jewish. My family feels
crucified by both. History shows tribalism is
destructive. I would note that my family in the spirit
of community put my Father’s name on the first and
second floors of the Jewish temple on Main Street of
Aspen in the spirit of community. Both local rabbis
signed our petition for a public hearing on the political
eviction of our family from the home* we built
ourselves. We presented over 2000 signatures to

20

Aspen’s city council and Judge Seldin. *We have never
been late on taxes.
11.
Justice Brandeis stated in his dissent in
Olmstead v. United States:
“Decency, security and liberty alike demand
that government officials shall be subjected to
the same rules of conduct that are commands
to the citizen. In a government of laws,
existence of the government will be imperiled if
it fails to observe the law scrupulously. If the
government becomes a lawbreaker, it breeds
contempt for the law; it invites every man to
become a law unto himself; it invites anarchy.”
Subscribed and sworn to before this 3rd day of
February, 2020.
I am duly authorized under the laws of the State of
Colorado to administer oaths.
s/Kat Bennett______________________
Notary Public
Katherine V. Bennett, Notary Public, State of Colorado,
Notary ID #20194040681 My commission expires
October, 24, 2023.
For the foregoing reasons, petitioner Lee Mulcahy
respectfully respects that this Court grant his Petition
for Writ of Certiorari.

21
Respectfully submitted,
Lee Mulcahy, Pro Se
53 Forge Rd., Aspen CO 81611 970.429.8797
February 3, 2020
leemulcahyphd@gmail. com

